<html>
<title> - COMMITTEE FUNDING FOR THE 113TH CONGRESS (DAY 2)</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
            COMMITTEE FUNDING FOR THE 113TH CONGRESS (DAY 2)

=======================================================================


                                HEARING

                               before the

                           COMMITTEE ON HOUSE

                             ADMINISTRATION

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                 Held in Washington, DC, March 6, 2013

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet
                             www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
80-286                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 JUAN VARGAS, California
RICHARD B. NUGENT, Florida

                           Professional Staff

                      Kelly Craven, Staff Director
                  Jamie Fleet, Minority Staff Director


            COMMITTEE FUNDING FOR THE 113TH CONGRESS (DAY 2)

                              ----------                              


                        WEDNESDAY, MARCH 6, 2013

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:44 a.m., in Room 
1310, Longworth, Hon. Candice S. Miller [chairman of the 
committee] presiding.
    Present: Representatives, Miller, Harper, Nugent, Brady and 
Lofgren.
    Staff Present: Kelly Craven, Staff Director; Phil Kiko, 
General Counsel; Peter Schalestock, Deputy General Counsel; 
Kimani Little, Parliamentarian; Joe Wallace, Legislative Clerk; 
Yael Barash, Assistant Legislative Clerk; Salley Wood, 
Communications Director/Deputy Staff Director; Bob 
Sensenbrenner, Elections Counsel; George Hadjiski, Director of 
Member Services; Richard Cappetto, Professional Staff; Jamie 
Fleet, Minority Staff Director; Thomas Hicks, Minority 
Elections Counsel; Greg Abbott, Minority Professional Staff; 
and Eddie Flaherty, Minority Professional Staff.
    The Chairman. We will now convene the Committee on House 
Administration to continue the hearing on committee funding for 
the 113th Congress. A quorum is present, so we may proceed.
    And the committee now welcomes Chairman Smith and Ranking 
Member Johnson from the Committee on Science, Space, and 
Technology. The official reporter will please enter a page 
break. We have a new section.
    The Chairman. Tracing back to the late 1950s and the space 
race, this Committee on Science, Space, Technology has had a 
very important history. Its jurisdiction extends over all 
energy research and development, all Federally-owned or 
operated nonmilitary energy laboratories, astronautical 
research and development, civil aviation research and 
development, environmental research and development, the 
commercial application of energy technology, the National 
Institute of Standards and Technology, the National Aeronautics 
and Space Administration, and the National Science Foundation, 
and the National Weather Service.
    Among its priorities for the 113th are to oversee the 
Department of Energy's Office of Science, its Office of Energy 
Efficiency and Renewable Energy, and the DOE's loan guarantee 
programs, its contract management systems, NASA's continuing 
mission and efforts, and our Nation's nuclear research and 
development.
    So, this morning, the committee is proud to have before it 
Chairman Smith and Ranking Member Johnson. And we appreciate 
you both coming. The committee has had an opportunity to 
already evaluate the materials that you have sent us, and we 
are looking at them very seriously, and we certainly appreciate 
both of you being in attendance today.
    And the chair recognizes Chairman Smith for his testimony.

STATEMENT OF THE HON. LAMAR SMITH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Smith of Texas. Thank you, Madam Chair.
    Chairwoman Miller, Ranking Member Brady, and members of the 
committee, thank you for the opportunity to testify today on 
the Science, Space, and Technology's budget for the 113th 
Congress.
    In this economy, all Americans are forced to tighten their 
belts and do more with less. This is something that the Science 
Committee has been doing for many years. The committee's budget 
has been cut much more than the typical House committee over 
the last 2 years. Since 2010, our budget has been reduced by 
16.4 percent, other committees have averaged 11.8 percent. And 
there is a chart attached to my opening statement if you want 
to take a look at that. All we ask for today--that is it. And 
that is the chart that shows other committees have averaged 16 
percent--I mean, we have been cut 16 percent, and other 
committees have averaged 11 percent.
    All we ask for today is fairness. Our request for 2013 sets 
the Science Committee's funding at a level that would treat it 
like other House committees. Even at this level, the committee 
would operate in 2013 with a smaller budget than it did in 
2005. As the chart shows, the Science Committee's budget was 
cut 16.4 percent over the last 2 years. On average, other 
committees were cut 11.8 percent. So the Science Committee was 
cut 4.6 percent more than the average of other committees.
    I am a fiscal conservative, but I also believe in fairness. 
And I know members of this committee share that sentiment. The 
Science Committee's jurisdiction is broad and diverse, covering 
Federal research and development activities in many different 
agencies. We oversee all or a part of NASA, Environmental 
Protection Agency, Department of Energy, National Science 
Foundation, FAA, and FEMA. America's economy is driven by 
innovation and technological advancements, and the purpose of 
the Science Committee is to encourage the R&D that leads to new 
innovations and job creation. This is America's future.
    To perform effective and efficient oversight and develop 
legislative policy direction, we must ensure that staffs on 
both sides of the aisle are equipped with the technical 
expertise necessary to handle this diverse jurisdiction. We are 
also endeavoring to revitalize the Science Committee and have 
taken several steps to increase the pace of our activities. We 
split the Energy and Environment Subcommittee into two separate 
subcommittees because each subject deserves more attention. So 
we now have six subcommittees instead of five. The staff is 
working hard. But to be more effective, we will need to be 
treated like other committees. The Science Committee also will 
review major programs that require legislative authorization. 
It has been 3 years since the committee reauthorized NASA, the 
National Science Foundation, STEM education, and energy 
research and development programs, and we aim to reauthorize 
all of those this year. We also will be reauthorizing a 
cybersecurity research and development program for the first 
time in 11 years. I expect that there will be at least twice as 
many hearings in this Congress as in the last Congress. So we 
will be more than busy. The Science Committee ensures that 
taxpayers and the American people receive a strong return on 
their investments.
    Again, as matter of fairness, our request before you for 
$6.3 million sets the Science Committee's funding at a level 
for it to be treated like other House committees. Thank you for 
your time. And I look forward to your questions.
    [The statement of Mr. Smith of Texas follows:]
    [GRAPHIC] [TIFF OMITTED] T0286A.001
    
    [GRAPHIC] [TIFF OMITTED] T0286A.002
    
    [GRAPHIC] [TIFF OMITTED] T0286A.003
    
    [GRAPHIC] [TIFF OMITTED] T0286A.004
    
    The Chairman. Thank you, Chairman.
    And the chair now recognizes the gentlelady from Texas, 
Ranking Member Johnson.

 STATEMENT OF THE HON. EDDIE BERNICE JOHNSON, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Ms. Johnson. Thank you very much, Madam Chairman.
    I just got this email, which I will read before my remarks: 
``The greatest difference in our generation may not be between 
liberals and conservatives, but between the pioneers of the 
future and prisoners of the past. Let me explain. Across 
America and around the world, there are countless pioneers 
inventing the future, and many of their developments will 
change our lives.''
    That is really the mission of our committee. That is from 
Newt Gingrich.
    Good morning, and let me thank you for the opportunity to 
speak today. That just came in, and it intrigued me. Chairman 
Smith has already presented an overview of our committee's 
finances, so I will just make a few remarks. As the chairman 
has already noted, we have absorbed a disproportionate cut 
relative to other committees in the 112th Congress.
    The result of that 16.4 percent reduction in our budget 
since 2010 was to force us to defer filling several staff 
slots, as well as to cut salaries of most of the staff who were 
retained from the 111th Congress. We also had to significantly 
limit committee oversight travel by members and staff.
    So, as we start the 113th Congress, Chairman Smith and I 
are committed to having the Committee on Science, Space, and 
Technology be active on the many important oversight and 
legislative matters within our jurisdiction. That jurisdiction 
is very broad and complex, ranging from areas as different as 
nanotechnology, space exploration, manufacturing technology, 
energy innovation, and STEM education, just to name a few.
    Attracting and retaining staff with the required experience 
and skills, as well as providing opportunities for members to 
visit the laboratories and other R&D organizations and talk to 
their personnel requires resources. And the level of cuts we 
have already absorbed has complicated these efforts. I would 
argue that the sequestration cuts that have now gone into 
effect will have impacts on our agencies that will only 
increase our oversight responsibilities, not diminish them.
    In addition, our committee will be undertaking a number of 
major legislative reauthorizations in the 113th Congress, 
including COMPETES and NASA, as well as a number of energy R&D 
programs.
    In closing, the Committee of Science, Space, and Technology 
will have an important role in determining policies that will 
impact the future of both our economy and our quality of life. 
While I think resources beyond those contained in the 
chairman's request are warranted to enable us to do our jobs 
effectively, I would request that, at a minimum, the committee 
grant us the funding level requested in the chairman's 
testimony.
    I thank you for your time, and I would be happy to answer 
any questions.
    [The statement of Ms. Johnson follows:]
    [GRAPHIC] [TIFF OMITTED] T0286A.005
    
    [GRAPHIC] [TIFF OMITTED] T0286A.006
    
    [GRAPHIC] [TIFF OMITTED] T0286A.007
    
    The Chairman. We thank you both very much for your 
testimony. And you do have an incredible amount of challenges 
before you as you go into the 113th, as Chairman Smith has laid 
out. I tried to take some notes on all these various things you 
are going to be reauthorizing here. And that is a very high 
level of activity.
    And I was also looking at some of the field hearings that 
you are looking at going to. And certainly going to 
Marshall's--or Marshall Space Flight Center, Kennedy Space 
Center, et cetera, are all things that are important, 
particularly with what is happening with the transition in NASA 
with the space program going to Orion and some of various kinds 
of things that are happening there I think are important for 
the committee as well.
    One thing I would--I don't know if I am asking particularly 
a question, or perhaps just making you an offer here, our 
committee is really wanting to try to assist all the various 
committees as you utilize new technology for various kinds of 
things so you don't have duplicative kinds of activities 
happening, and for instance, some of the enterprise solutions 
that this committee has been very proactive on. And we really 
want to ratchet that up as we go forward here, being able to 
resource the various committees in ways that we might be able 
to, like using the cloud computing.
    Mr. Smith of Texas. Right.
    The Chairman. Even some of the--I was trying to look 
through some of the information that you provided us about, you 
know, whether it is Web development or various things like 
that. I guess I would just say that our staff wants to assist 
in any way that you think is appropriate for us to do so to 
help you. You know, subscription services, I know it sounds 
small, but I mean the ability to save $5,000, $10,000, et 
cetera, et cetera, helps you a bit with some of your staffing. 
And all of that can add up I think a bit. But certainly, with 
the IT might be another area to look at as well.
    Mr. Smith of Texas. Madam Chair, I actually have a couple 
of suggestions in that area you might expect from the Science 
and Technology Committee.
    One is a House-wide software licenses for Adobe 
Professional would be very useful and likely to save the 
taxpayer considerable funds when looking at the costs relative 
to the numerous purchases of software by other committees. And 
then a license for the Citrix Solution the committee has 
already implemented could potentially provide benefits we see 
in the solution to the entire House. So those are two areas 
where I think other committees and the House itself would save.
    On the Citrix, let me go into a little bit more detail 
there. The Citrix system is what allows remote access by staff, 
particularly maybe on occasions like today when they need to 
ensure continuity of operations and they can't be in their 
offices, or when we have a disaster recovery, something like 
that. So that system could help, as well as the Adobe 
Professional. So those would be two areas that I think would 
reap savings across the board.
    The Chairman. I see my staff back here busily taking notes 
while you are mentioning those. So we appreciate that input.
    Mr. Smith of Texas. We hope that you would credit the 
committee's budget with any savings that accrue.
    The Chairman. We will take that under advisement.
    We are really trying to think about how we can improve the 
Wi-Fi service on the Hill. I mean, as you go to a lot of 
paperless kinds of hearings and all that, so people can use 
their iPads instead. There are just a lot of things that we 
have always done it this way, but time to step it up here a 
bit, right? So I just mention that as well.
    At this time, I would recognize our Ranking Member Brady 
for his questions.
    Mr. Brady. Thank you, Madam Chair.
    My only question would be in this time of difficulty with 
the cuts that we have and you had, and the cuts that you may be 
expecting, do either one of you or both of you have problems 
finding quality people and probably most important, keeping the 
quality people with the institutional knowledge that you have 
coming in with their services? They can make more money on the 
outside, and now, they are being asked to take another cut.
    Mr. Smith of Texas. Right. Congressman Brady, I couldn't 
have asked for a better question about trying to find quality 
people, because we have been somewhat hampered in our ability 
to attract, for instance, subcommittee staff directors to join 
us because we haven't been able to necessarily equal the 
salaries that they are being paid in the private sector. So 
that is one of the reasons why I hope that we are granted some 
deference on the budget so that we can make offers to 
individuals, and so that they will be able to consider working 
on the Hill and working for our committee.
    We have a number of openings, and unfortunately, we are 
making offers to individuals and asking them to take a pay cut. 
And that is not conducive to attracting the best individuals, 
necessarily. So it all comes back to the budget, and if we have 
enough to pay what is comparable in the private sector, we 
should be able to attract those individuals. But that is a 
serious concern.
    Mr. Brady. Thank you. And thank you for your testimony.
    The Chairman. I appreciate your talking about reauthorizing 
NASA. And really, it is I think an unfortunate thing that our 
space program is not moving forward as I think many would like 
it to be. And I certainly see the private sector getting much 
more involved. And that is fine. But when you see China and 
Russia and others taking off like this, reauthorizing NASA is 
very important. I just have to tell you one personal reason I 
have always been sort of a space nut, because my dad actually 
was an aeronautical engineer. He has passed on now. But he 
worked with Wernher Von Braun at Redstone. And when we were 
kids, you know, I mean, here he was sort of a rocket scientist, 
and he used to come home very upset sometimes because he would 
say, now the government is getting involved in the space 
program, and we no longer can set off a rocket until the weight 
of the paperwork equals the weight of the rocket, you know. We 
used to be able just do what we wanted, but now the government 
is involved and is stopping our creativity.
    But really there has been such a tremendous amount of spin 
off. We are talking about technology, and whether it is your 
GPS, just getting to work this morning or whatever, these are 
all spin-offs of the space program, incredible amounts of 
stride that the taxpayers get in an indirect way from the space 
program. So I think it is very important your committee is 
reauthorizing NASA.
    Mr. Smith of Texas. Madam Chair, if we reauthorize that, 
that will be the first time in 3 years. It is a $17 billion 
reauthorization. And I hope this year will be a bipartisan 
effort as well. Congresswoman Lofgren sits on the committee, 
too. And I am certainly pleased to hear you are sympathetic to 
aeronautical engineers. We will put more of those in our 
budget.
    The Chairman. Very good.
    The chair would recognize the gentlelady from California if 
she would like to question.
    Ms. Lofgren. No, Madam Chair. I understand that the 
majority and minority are working closely together to deal with 
this as best we can. And I certainly will do my part, not only 
as a member of this committee, but as a member of the Science 
Committee. And I want to praise both the chair and ranking 
member for their leadership.
    The Chairman. I thank you both for coming. Is there 
anything else you want to tell the committee? Anything at all? 
Otherwise, we certainly appreciate your attendance this 
morning. We certainly will take into consideration and look at 
the graph that you have given us and recognize what has 
happened to the committee in the last several years and what 
you are looking at going forward. We appreciate you both 
coming.
    Mr. Smith of Texas. Thank you very much.
    The Chairman. Thank you so much.
    The committee is going to recess until 10:30.
    [Recess.]
    The Chairman. We will now reconvene the Committee on House 
Admin to continue the hearing on committee funding for the 
113th. A quorum is present, so we may now proceed. The 
committee now welcomes Chairman Goodlatte and Ranking Member 
Conyers of the great State of Michigan for the Committee on the 
Judiciary. And the official reporter will enter a page break. 
We have a new section.
    The Chairman. The House Judiciary Committee has 
jurisdiction over protecting our constitutional freedoms and 
civil liberties, oversight of the United States Departments of 
Justice and Homeland Security, legal, regulatory innovation, 
competition, and antitrust laws, terrorism and crime, and 
immigration reform. The committee also has jurisdiction over 
all proposed amendments to the Constitution.
    Its priorities during the 113th include small business 
regulatory relief, immigration reform, enhancing efficiencies 
within our legal system, discouraging frivolous lawsuits, 
modernizing our patent and copyright laws, and ensuring our 
cybersecurity efforts match our national security needs. We 
appreciate both the chairman and the ranking member, their 
attendance here today before our committee. The committee has 
had an opportunity to evaluate all of your submitted requests, 
and we are looking at all of that, and are going to give it 
every serious consideration certainly. And we again appreciate 
your attendance.
    And the chair now recognizes Chairman Goodlatte for his 
remarks.

   STATEMENT OF THE HON. BOB GOODLATTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Goodlatte. Thank you, Madam Chairman and Ranking Member 
Brady, and members of the committee. I appreciate the 
opportunity to testify on the Judiciary Committee's budget for 
the first session of the 113th Congress. In this economy, all 
Americans are forced to tighten their belts and do more with 
less. I recognize that. And the Judiciary Committee is prepared 
to do the same.
    However, Ranking Member Conyers and I would like to make 
the case before you today that the Judiciary Committee is 
deserving of the maximum amount of funds that you can dedicate 
to it. Historically, the Judiciary Committee is one of the most 
active committees in the Congress. In the 112th Congress, for 
example, nearly 15 percent of the total legislative measures 
introduced were referred to the committee. The Judiciary 
Committee reported 77 bills and resolutions to the House, with 
accompanying legislative reports on all but a few.
    In addition, a total of 42 bills in which the Judiciary 
Committee had a jurisdictional interest were signed into law by 
the President. Excluding postal designations and coin-naming 
bills, the Judiciary Committee had more legislation under its 
primary jurisdiction enacted into law than any other House 
committee.
    Already in the 113th Congress, the Judiciary Committee has 
been hard at work to meet the demands of the heavy workload of 
the committee, including work on issues of great importance to 
the entire Congress. One only needs to pick up a newspaper and 
read the headlines to appreciate how busy the Judiciary 
Committee has been and will continue to be this year as we 
consider such issues as immigration reform and firearms, in 
addition to our normal heavy workload.
    We also expect to increase the committee's efforts to 
engage in aggressive oversight this Congress. Among the 
important issues the committee continues to consider are 
ensuring that Federal law enforcement agencies have the 
necessary tools to prevent terrorist attacks, that the 
constitutional rights and civil liberties of Americans are 
protected, that America's borders are secure, and that the 
administration of justice is fair and efficient within both the 
Justice Department and Federal law enforcement agencies, and 
within our Federal judiciary.
    In addition, the committee plays an important role in 
strengthening our economy and putting Americans back to work. 
We ensure robust and fair competition under the antitrust laws, 
encourage innovation, and promote America's global 
competitiveness through our intellectual property laws, improve 
our immigration laws to attract the best and brightest from 
around the world, and bolster the business climate by providing 
relief from burdensome and excessive regulations.
    These issues are critical to the safety and economic well 
being of millions of Americans. Because of this, it is vital 
that we retain a highly qualified staff as the cornerstone of 
the committee's capacity to consider complicated and often 
controversial legislation and policy issues that fall within 
its jurisdiction. To attract and retain quality staff, the 
committee must be able to offer compensation that is at least 
somewhat competitive with the private sector. This is 
particularly challenging when a disproportionate number of 
committee staff are attorneys, with substantial experience and 
public policy expertise who could command higher salaries from 
the private sector.
    In addition to the personnel that are necessary to manage 
the demanding workload of the Judiciary Committee, there are 
operating funds that will be critical in enabling the committee 
to properly investigate certain policy issues under its 
jurisdiction. For example, I believe that it is an important 
function of the committee to conduct field hearings on certain 
complex issues, such as immigration reform, where a full 
evaluation of the issue is not possible without seeing 
firsthand how the current programs operate and to better 
understand the successes and deficiencies of the current law.
    Furthermore, one of the commitments that I made when I 
became chairman of the Judiciary Committee is that the 
committee would build a new cutting-edge Web site to replace 
the outdated Web site that currently exists. It is a disservice 
to the Members of the House and the public to not provide user-
friendly, current, transparent information about the important 
issues being considered by the Judiciary Committee. And 
therefore, rebuilding the committee's Web site is a top 
priority.
    While I will do what is necessary to ensure that the 
Judiciary Committee is even more productive while operating 
with less, I respectfully request that when allocating funds to 
committees, you take into account the legislative burden of the 
committee and whether it will require more resources when 
compared with other committees.
    Lastly, I note that our budget submission continues our 
commitment to give the minority one-third of the staff slots 
and one-third of the salaries after subtracting shared 
administrative expenses and staff.
    And I thank you for your time, and yield back.
    [The statement of Mr. Goodlatte follows:]
    [GRAPHIC] [TIFF OMITTED] T0286A.008
    
    [GRAPHIC] [TIFF OMITTED] T0286A.009
    
    [GRAPHIC] [TIFF OMITTED] T0286A.010
    
    [GRAPHIC] [TIFF OMITTED] T0286A.011
    
    [GRAPHIC] [TIFF OMITTED] T0286A.012
    
    [GRAPHIC] [TIFF OMITTED] T0286A.013
    
    The Chairman. Thank the gentleman very much.
    And at this time, the chair recognizes the ranking member, 
Mr. Conyers.

 STATEMENT OF THE HON. JOHN CONYERS, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Conyers. Thank you, Chairwoman Candice Miller, and of 
course, the ranking member, Mr. Brady, and Zoe Lofgren, who is 
a senior member of the Judiciary Committee, as well as this 
responsibility, and Mr. Harper of Mississippi. We are all glad 
to be here with you.
    My chairman has done an excellent job of describing our 
situation, our responsibilities, and what our ask is. I ask 
unanimous consent to put my statement in the record in its 
entirety.
    The Chairman. Without objection.
    Mr. Conyers. Thank you. And I probably won't have to read 
it all because much of it is repetitive. But the 2013 budget 
request for the House Judiciary Committee is very important. I 
would like to tell you that when I first came to the Congress, 
John W. McCormack was the Speaker of the House. And I came to 
him and I asked him, before I had gotten an assignment, that I 
be assigned to the Judiciary Committee. It was the committee 
handling the civil rights activities, which, in the 1960s, was 
really going on at a very high pace. And I told him that that 
was a request I would like to have passed on. At that time, 
from Arkansas, his name escapes me right now, but he was the 
chairman of this committee. It was a Democrat. And he, I went 
before him, and they acceded to my request. And I was very, 
very pleased to start my career out on the Judiciary Committee.
    The chairman at that time was the late Emanuel Celler of 
New York, who handled most of the civil rights activity during 
that period. And during many of those years, there were 
Republican chairmen of the House Judiciary Committee. And we 
got along quite well, as we still do today under Bob 
Goodlatte's leadership.
    So I join with the chairman in requesting that we allocate 
as much as we can, the maximum amount of budget for the 
committee to reflect some of the critical issues.
    The chair, Ms. Miller, has already outlined our 
constitutional responsibilities, and so I am sure everyone is 
aware of them: 77 bills in the last Congress; one in eight of 
the legislative measures introduced to the House are referred 
to our committee; and 40 bills signed into law. We had more 
than 150 subcommittee hearings during the last Congress and 20 
full committee hearings and approximately 50 full committee 
markups. And so our committee plays a major role in dealing 
with diverse legislative and oversight issues that have 
national and occasionally global significance.
    In any one session of Congress, of course, immigration 
reform and reduction of gun violence, copyright enforcement, 
constitutional amendments, voting rights, and criminal law are 
all part of our day-to-day everyday responsibilities. In 
addition, we have oversight of the Department of Justice, which 
is I think a significant responsibility. And we have oversight 
of the Federal judicial system itself. One of the things that 
really make this job a treat is that we are able to be invited 
over by the Chief Justice of the Supreme Court to meet with him 
to discuss our legislative issues and other issues that connect 
us and the Supreme Court and the rest of the Federal judiciary.
    Chairman Goodlatte has explained the other oversight 
responsibilities, so I won't go into that.
    There is one thing I would like to point out, that it could 
be that our jurisdiction, because of our jurisdiction, the 
committee workload will increase in this 113th session of 
Congress. And Chairman Goodlatte has proposed an ambitious 
hearing and legislative schedule, in which we will be dealing 
with all of these very current and topical issues that fall 
within our jurisdiction.
    As your committee considers, Madam Chairman, the budget 
allocations for this year, I urge you to prioritize the 
Judiciary Committee's budget request based on our extensive 
legislative responsibilities. And I must point out that, in 
addition, we received cuts from the 112th Congress that have 
made us actually have to reduce some staff. And I think that 
was an 11 percent cut from the 112th committee considerations. 
So, given the negative ramifications, and our staff does work 
long hours and are frequently called upon to work at night and 
sometimes on weekends, so if there were even fewer staff 
allocated, I am hoping that that could be minimized to the 
greatest extent possible. The chairman, and I with him, have 
submitted a budget request before you today that reflects our 
shared commitment to retaining the most experienced people that 
we can to support the significant work of the committee. And I 
am pleased that Chairman Goodlatte is committed to working 
cooperatively with me in an effort to minimize any impact of 
funding reductions, and on the workload and assignments that 
are part of our daily work.
    So I thank the members of the committee, appreciate your 
attention to our request, and hope to be able to persuade you 
to be as efficient but as generous as possible. I thank the 
members of the committee.
    [The statement of Mr. Conyers follows:]

    [GRAPHIC] [TIFF OMITTED] 80286A.014
    
    [GRAPHIC] [TIFF OMITTED] 80286A.015
    
    [GRAPHIC] [TIFF OMITTED] 80286A.016
    
    [GRAPHIC] [TIFF OMITTED] 80286A.017
    
    The Chairman. Thank you very much. We appreciate both the 
chairman and the ranking member and your comments.
    We appreciate your attendance here.
    Just a couple of comments.
    As I say, we have received all your budget documentation, 
started taking a look at it. And I think it is important that 
you detailed out here the possibility of some field hearings, 
in particular about immigration reform. When you think about 
comprehensive immigration reform being one of the priorities, I 
think, for the Congress at this time, so we are certainly 
cognizant of the fact that the committee does have some rather 
unique challenges going forward in the 113th. We are looking at 
some of those kind of things. One thing I would say, whether 
this is a question or observation, or just sort of throwing 
something out there for you as an offer, this committee has 
really tried to do some enterprise types of projects that could 
resource the respective committees in particular ways. I am 
talking about IT, like the House cloud. I am not sure exactly 
if the committee has had an opportunity to be utilizing some of 
the various enterprise platforms that this committee has made 
available. We are going to try do a better job with the Wi-Fi 
service on the Hill, as you perhaps go to paperless kinds of 
committee hearings, so that everybody would have good reception 
for their iPads, et cetera.
    I was sort of looking through some of the detail you 
provided about your Web site, for instance, rebuilding your Web 
site, et cetera. This is an area I think our committee could 
probably, hopefully, if you think it is appropriate, make some 
resourcing available to you. These are not huge ticket items, 
but it could add up a bit and help you with your staffing, et 
cetera. You would be able to--you know, money is fungible--use 
it in other ways as you see most appropriate. So I offer that 
to you. And if there are any comments or questions you have in 
regard to that.
    Mr. Conyers. I thank you for your recommendations, 
Chairman.
    You are quite right that this new technology offers us an 
easier and more efficient way to communicate and keep everyone 
in the country involved and up to date on our developments. We 
will continue to look at that.
    The Chairman. Thank you.
    Mr. Goodlatte. Thank you, Madam Chairman. We will 
definitely take you up on that offer. And we have hired a new 
IT person to head our efforts there. We think the committee's 
work in that area needs to be improved, particularly with 
regard to the Web site, and we will be looking for help and 
resources wherever we can find them to accomplish that. And we 
are looking at using the Library of Congress upstream as a way 
to modernize our Web site and to increase the transparency of 
the committee, which we think is also important for us to do. 
So I definitely welcome any way that you can help us.
    As you have noted, we do have a heavy burden, heavy 
workload anyway, and anticipating that sequestration would 
cause us to incur some reductions, coming in as a new chairman 
we made some very tough personnel decisions. But at the end of 
that, we have some very particular needs, and we also have some 
additional work that was perhaps not anticipated just a few 
months ago related to both Second Amendment issues and 
immigration issues.
    So anything you can do to help us level the resources 
available to committees based upon the amount of work that 
needs to be produced by those committees would be helpful to 
the Judiciary Committee because I think we do as much as any 
committee in the Congress.
    The Chairman. Very well.
    At this time, I recognize the ranking member, Mr. Brady.
    Mr. Brady. Thank you, Madam Chair.
    My only comment and issue, as I have with all the other 
committees, and especially your committee, because you have a 
certain quality and expertise of people that, attorneys you 
need to hire, is your ability to hire people at the salary that 
is three or four times less than they can make on the outside 
and also the ability to keep the people with the institutional 
knowledge that you do have working there that came in at a 
relatively low salary and then asking them to take another cut. 
My issue and my concern is whether we get, not only your 
committee, but all committees, whether we keep the ability to 
be able to keep the people and hire new people.
    And with that, as the ranking member made note of, you have 
a senior member of your committee and a valued member of our 
committee right here who has much more knowledge about your 
workings than I do, so I would like to yield the remainder of 
my time to Ms. Lofgren.
    Ms. Lofgren. Well, thank you very much, Mr. Brady.
    I actually think that these reductions, given what the 
committee is facing, are probably unwise. And I would not say 
that, and I have not said that to other committees. But if we 
in fact are going to move into the very complex area of reform 
of immigration law, that is a massive effort. And, you know, 
cutting personnel is not going to make us better able to do 
that. So I have a concern about that.
    I also wanted to ask, it is my understanding on the 
Democratic side, that the staff is each being asked to take a 
20 percent reduction in salary. Is that correct, Mr. Conyers?
    Mr. Conyers. I think that it is. I want to be accurate. 
That is a worst-case scenario. Although just this morning, we 
were going over this, and we had one lawyer, of course unnamed, 
that we had just been able to raise up after months of working 
below the rates of compensation for the other attorneys to get 
back at a level. So when you take into consideration the 
sequester effect and the fact that there was a reduction in the 
112th Congress, I think the case that we are putting forward is 
not an overexaggeration of the need for you to consider all 
these factors and the quality and the significance of the 
issues that we are called upon to handle, as you well know.
    You have been a subcommittee chair as well as a senior 
member of the Judiciary Committee, so I know that you can 
verify everything that me and Chairman Goodlatte have remarked 
about here today.
    Ms. Lofgren. I guess I am just wondering if there are ways 
to economize in other areas, because when I think about, for 
example, some of the lawyers, and I think that on both sides of 
the aisle, these are attorneys who took a pay cut to come, in 
most cases, from the private sector for the chance to work on 
the public's business, and so they didn't come here to make 
money, but at some point, if you can't make your car payments, 
you can't do this. So I am just wondering, are there ways to 
economize to prevent further reductions in salary? Because I 
think it is going to impinge the capacity of the committee on 
both sides of the aisle to do the really important work that 
the Congress has entrusted with us.
    Mr. Goodlatte. Well, Congresswoman Lofgren, as you noted, 
the committee is, and as you know, we are already hard at work 
on immigration reform, and we are going to continue that. It is 
not an easy topic. It is going to take a while to get through 
that. So, virtually all of this year, we are going to be very 
dedicated to doing that. We have some great attorneys, many 
with outstanding backgrounds and previous experience and 
degrees from America's top universities. And they work for the 
Judiciary Committee because they want to be involved in these 
public policy issues, but they are paid substantially less than 
they would earn in the private sector.
    We had the advantage, if you can call it that, coming in as 
a new chairman, of going through the entire staff and making 
tough decisions prior to my taking office as chairman, to 
anticipate the sequestration. And we have reached out to 
Ranking Member Conyers and his chief of staff to work with them 
to help find ways so that they don't experience that kind of a 
pay cut. We do not want to see that happen.
    But both in terms of our need for additional employees that 
we did not fill because of the anticipation of the problem, but 
not anticipating that we would be spending so much on 
immigration and virtually every subcommittee on the committee 
has a heavy workload, but some heavier than was anticipated, 
and their need to not cut back on great people that they have 
on their side, we really could use consideration by your 
committee that our cut not be comparable to some other 
committees that--and I don't want to get involved in naming 
anybody--but that may not have that kind of workload or the 
need to have as many attorneys as the Judiciary Committee that 
by the very nature of its work needs to have.
    Ms. Lofgren. May I ask, and I don't know if we are in a 
position to do this, but given the two hot-button issues that 
are facing the Congress in terms of the Second Amendment and 
immigration reform, whether you could provide a modest sum that 
might allow the committee to better meet those challenges if we 
were to take a look at that. I don't know. I mean, I don't know 
whether the committee is even willing to do that. But if we 
cannot actually step forward and discharge our obligations, the 
whole Congress is going to suffer in that regard. Do you have 
what the amount would be if we were to do a minor adjustment to 
deal with those two issues?
    Mr. Conyers. Not on me at the moment, but I could certainly 
submit it for the record, and I would be pleased to do that.
    Mr. Goodlatte. We would be happy to. We have given our 
overall budget recommendations, and we would ask that 
consideration be given for that. But we would be happy to 
provide any supplemental information.
    Ms. Lofgren. I would just note, just by way of precedent, a 
couple of years ago, the committee did give an augmentation to 
the Ethics Committee because of the workload that they had. 
And, you know, every committee is going to come in and say our 
workload is crushing, and that is true, but there sometimes are 
circumstances where there are anomalies that we have to cope 
with. And this may be one of those cases.
    Could I ask just one more question, and then I won't take 
my time?
    Mr. Goodlatte, I want to make sure that the entire 
legislative history of the committee is available on our Web 
sites. And that used to be the case. I was actually thinking 
about referring somebody to some testimony that was received 
when I chaired the subcommittee, and I found, much to my 
dismay, that all of it was gone. Storage is cheap. I think it 
has now been restored. But I think that the obligation, no 
matter which party has the majority and who is chair, that that 
is the history of the committee, all of the testimony ought to 
be available on the Web site for all of the subcommittees.
    Mr. Goodlatte. I agree, both from the standpoint of doing 
proper research, and also from the standpoint of transparency. 
I think the chairwoman's offer with regard to help from this 
committee, and again, our new technology folks will definitely 
work with the House Administration Committee on use of cloud 
technology, for example, so that there should be no problems 
with storage of information.
    And access and good search capabilities as well. Our Web 
site is woefully in need of improvement, and we are dedicated 
to doing that.
    Ms. Lofgren. I appreciate that. I look forward to working 
with you on that.
    I thank you, Madam Chairperson.
    The Chairman. I thank the gentlelady for her comments.
    And at this time, the chair recognizes the gentleman from 
Mississippi, Mr. Harper.
    Mr. Harper. Thank you, Madam Chair.
    And welcome to both of you. And thanks for the great job 
that you are doing.
    I had the privilege of serving in the 111th Congress of 
serving on Judiciary, and Mr. Conyers, you as chairman.
    And I noticed the committee has always had a great working 
relationship across the aisle, and I know that you are 
continuing that tradition, Mr. Chairman, and appreciate that 
hard work in difficult times, particularly on the budget side 
of things and trying to do this.
    In 2011, there was a 5 percent cut and 6.4 percent in 2012. 
And while nobody likes to see that, it appeared to me that you 
did an incredible job on those restrictions and less funds that 
you had available. Am I correct in that, in the 112th, that you 
met your obligations during that time?
    Mr. Goodlatte. Yes. I was not chairman then, but certainly 
we met the targets that we were responsible for. And we also 
anticipated that there might be further cuts by not filling all 
positions. And not all positions need to be filled. But I would 
also argue to the committee that because of the work that we 
are now undertaking, some of which came about without 
anticipation--not that we wouldn't be working on immigration 
law. The nationwide push and the nationwide interest in doing 
comprehensive immigration reform is a good development. And we 
want to take full advantage of it. We need to have the right 
people to do it.
    And we have other similar burdens. And we have short-
changed other subcommittees in order to be able to do that. So 
our request to have some help with some personnel would be very 
important to us and very welcome if you can favorably respond.
    Mr. Harper. And I know we mentioned a number of areas that 
it would be very important in this Congress. Are there any 
other special circumstances that you think the committee should 
be aware of as we try to set these figures?
    Mr. Goodlatte. Well, other than to say that there are 
positions that the committee needs to have related to specific 
areas of the law, antitrust law, for example, where we need to 
have the resources so that as we do the extra work that is 
needed in immigration, for example, we are not short-changing a 
huge area of jurisdiction in importance to the committee, and 
that is oversight. I mean, virtually every other week, we have 
a major antitrust issue that the committee needs to be looking 
at. Last week, it was the merger of American Airlines and U.S. 
Air. That is a very important thing that our antitrust laws 
play very heavily into. And we need to have the expertise in 
that area available to the members of the committee.
    Mr. Harper. Thank you, Mr. Chairman.
    I yield back.
    Mr. Conyers. Could I just add on just briefly?
    Antitrust is a huge area. But the other area, Mr. Harper, 
that is--I don't know if it is going to become a growing 
concern yet because we haven't had a chance to look at it 
carefully, but in the voting of last year in November, there 
were many reports that there were long lines and a lot of 
waiting. I think some people, I hate to say this, even in 
Michigan, there were 1- and 2-hour waits in some places. And in 
some States, there were even more than that, which we wanted to 
look at. I don't know if it is going to be big enough or 
consume any more of our staff than we can afford, but it is 
something that I wanted to mention here at this committee 
hearing.
    Thank you, sir.
    Mr. Harper. Thank you.
    The Chairman. I appreciate both of the comments. I will 
just say, as a former Secretary of State of Michigan, chief 
elections officer, I am not aware of anybody waiting that long 
of time. But I am appreciative of those comments, and will 
certainly look at that.
    I appreciate both of you coming, the chairman and the 
ranking member. Again, we have had a good discussion. And the 
committee will take every due consideration of the very good 
documentation you put forward and your requests for your 
budget. Thank you very much both of you.
    Mr. Goodlatte. Thank you, Madam Chairman.
    Mr. Conyers. Thank you.
    The Chairman. The committee now welcomes Chairman Lucas and 
Ranking Member Peterson of the Committee on Agriculture.
    The official reporter will enter a page break as we record 
a new section.
    The Chairman. The Committee on Ag has jurisdiction over 
agricultural policies generally, agricultural production and 
marketing, stabilization of prices of agricultural products and 
commodities, commodity exchanges, crop insurance and soil 
conservation and the expansion--excuse me--extension of farm 
credit and farm security.
    During the 113th, the committee's priorities include 
working on a farm bill, guarding against and stopping 
unnecessary regulations, and ensuring our WTO and trading 
partners allow fair access for American products and 
commodities.
    So we appreciate both the chairman and the ranking member 
being here. The committee has had an opportunity to look at all 
of the budget documentation that you have submitted, and we 
appreciate your attention to all of that detail.
    And at this time, the chair would recognize the chairman, 
Mr. Lucas.

   STATEMENT OF THE HON. FRANK D. LUCAS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Lucas. Thank you, Madam Chairman, and members of the 
committee for this opportunity to speak with you today.
    I appreciate Ranking Member Collin Peterson joining me to 
outline our committee's proposed budget for the next year. As 
all you know, we have had a very long and proud history of 
bipartisan cooperation, and I plan to continue that spirit of 
cooperation as we proceed with the work of the committee in the 
113th Congress.
    In addition to bipartisanship, the committee has a long 
history of fiscal responsibility. The modest spending and 
cooperative nature of our committee spans back more than two 
decades under the control of both parties.
    With the impending expiration authorizations of both the 
2008 Farm Bill and the Commodity Futures Trading Commission, 
CFTC, we have a significant workload ahead of us in this 
Congress; therefore, we are proposing level funding for the 
committee for the 113th Congress.
    The resources provided us will allow us to write both of 
these comprehensive pieces of legislation as well as proceed 
with a robust oversight agenda, as outlined in our oversight 
plan submitted to you earlier this year.
    With significant cuts in the 112th Congress and the budget 
uncertainty, we were unable to fill four of our positions on 
the committee. In addition to those four open slots, we are now 
down another five staff people, a press person, an investigator 
and three policy advisors. We have not filled these positions, 
because we did not know what budget cuts to expect for this 
year and this Congress. This equals a 28 percent reduction in 
our staff if we do not fill these open positions.
    In response to this budget uncertainty, we have 
consolidated positions and have eliminated subcommittee staff 
directors. Unfortunately, this puts our subcommittee chairmen 
at a disadvantage, as this committee has always been able to 
provide at least one staff person to serve each of the 
subcommittee chairmen.
    We also reduced the number of subcommittees at the 
committee from six subcommittees to five subcommittees. And 
finally, we have done very little travel and limited our field 
hearings. We are doing everything possible to work more 
efficiently and effectively.
    The committee will continue to support leadership in 
implementing an additional 11 percent cut, if sequestration 
takes place. However, I am concerned about the long-term impact 
on the committee to fulfill its responsibilities, as well as 
being able to retain qualified, experienced staff. In order to 
implement this level of cuts, we will have to continue to make 
very conservative staffing decisions. This will hinder our 
ability to have an aggressive oversight hearing agenda, and 
additionally, we will have to continue to limit the number of 
field hearings and site visits that we would like to do.
    However, if the committee allocates a 5 percent increase 
over our actual spending in 2012, then we should be able to 
maintain our current staff levels and hire four additional 
staff members. While we would still be shorthanded under this 
scenario, we certainly can make it work.
    Madam Chair, we truly have our work cut out for us in this 
Congress, but we firmly believe that we can accomplish all of 
this, given our current resources.
    We greatly appreciate your consideration of our budget 
request. Please let us know if we can provide any additional 
information.
    Thank you, Madam Chairman.
    [The statement of Mr. Lucas follows:]
    [GRAPHIC] [TIFF OMITTED] 80286A.018
    
    [GRAPHIC] [TIFF OMITTED] 80286A.019
    
    The Chairman. Thank the chairman very much.
    At this time, we recognize the ranking member, Mr. 
Peterson.

 STATEMENT OF THE HON. COLLIN C. PETERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Peterson. Thank you, Madam Chairwoman and Ranking 
Member Brady and members of the committee. I am pleased to be 
here today to support the Agricultural Committee's budget 
request.
    As Chairman Lucas has said, the Ag Committee has a history 
of working in a bipartisan fashion, and not always easy, but we 
work very hard to listen and understand each other.
    As Chairman Lucas has outlined, there are many challenges 
before us, including completion of the 5-year Farm Bill and the 
CFTC reauthorization. The farm bill has proven to be a tough 
project to finish, as you all are aware, but the committee has 
worked hard over the past couple of years to use all 
opportunities to get the bill done. So we are going to continue 
that effort this year, and I hope and expect that it will mean 
a final farm bill signed into law this year.
    Financial reform oversight will continue to be a focus for 
the committee as we consider CFTC reauthorization. And we need 
to make sure that we do not repeat some of the mistakes of the 
past with regard to financial sector regulation.
    The public record shows that we are a frugal committee. We 
strive to use our resources and staff as efficiently and 
effectively as possible.
    And through our work, Chairman Lucas has been fair to the 
minority. We have no complaints about the division of 
resources. The majority has worked to protect the rights of the 
minority, and we appreciate the chairman's efforts in that 
regard. It helps make the rest of our work all the easier when 
we agree on policy decisions and, perhaps more importantly, 
when we disagree on policy.
    So I thank the committee today for the opportunity to visit 
with you and your important work on behalf of the House, and 
appreciate your consideration of the Ag Committee's budget 
request. Thank you.
    [The statement of Mr. Peterson follows:]
    [GRAPHIC] [TIFF OMITTED] 80286A.020
    
    The Chairman. I thank you, gentlemen, both very, very much, 
and you do have some unique challenges, certainly, as we go 
into this Congress with the farm bill.
    Sometimes people say, why is the farm bill so important? 
Well, if you like to eat, maybe it is important. If you don't 
care about eating, maybe you don't care, right? But it is 
critically important for our country.
    And we certainly all appreciate the bipartisanship that the 
committee has always demonstrated, and hope you are going to be 
very successful with that this year.
    Just a couple of things. As I say, we have looked at the 
detail. I was just looking at all the vacancies that you have 
in both the majority and the minority on the committee. We are 
certainly cognizant of that. I know you have detailed out here 
a bit for field hearings perhaps on your farm bill as well, 
which I think is certainly an appropriate thing.
    Just one thing I would say, it is a question or a comment, 
or sort of throwing it out there for you. One of things that 
our committee has, this committee has done very well in the 
past and really want to ratchet up here a bit is to help 
resource the respective committees with perhaps IT kinds of 
things that you are utilizing, some new technologies. We know 
we need to have a little bit better Wi-Fi service on the Hill 
as you possibly go to paperless committee hearings, those kinds 
of things, to make sure your iPads are working properly, et 
cetera.
    I was sort of trying to look through some of the detail you 
gave about various kinds of things that you have done with IT. 
It looks like you have sort of purchased your own software 
agreement, et cetera, rather than using the House cloud. And I 
guess I just offer that up as perhaps whether there are any of 
the enterprise kinds of foundations, projects that this 
committee is working on that would assist your committee, we 
certainly want to stand by and do that however we go, whether 
that is Web site development, whatever it is.
    So not really so much in the form of a question, but want 
to help if we can on things that you think might be 
appropriate.
    Mr. Lucas. Absolutely, Chairman.
    We have some very good IT people on the staff and working 
in whatever way will make the systems more efficient. I know 
that there have been efforts to try and address the committee 
providing resources for all committees, subscription costs and 
all those sort of things. We are willing to look at those. 
Collin and I have run this ship in a very frugal fashion, and 
we are going to continue to do that. Whatever help you can 
provide, we will be very pleased with.
    The Chairman. Very well. At this time, I recognize my 
ranking member, Mr. Brady.
    No questions.
    At this time, the chair recognizes Mr. Harper.
    Mr. Harper. I just want to thank you for what you are 
doing, and under somewhat less than perfect circumstances, I 
think you have done a commendable job on the committee. And we 
will--though these are not the best days to set things, but are 
there any special circumstances, Chairman Lucas, that you think 
the committee needs to be aware of as we are trying to set the 
amounts for each committee?
    Mr. Lucas. I would just note that as we work through this 
farm bill process, having to reduce the number of staff people 
who work with the subcommittee chairmen means that our 
additional staff have to work a lot of overtime. And I would 
say this: the people who work on the Ag Committee, the lawyers 
and the economists, the policy folks are very focused on this 
subject matter and are willing to go to great lengths to get 
the mission done.
    If we don't return to some sort of normal funding levels in 
the future, I can see once the 5-year farm bill is done, a 
potential for desertion amongst these good, overworked folks. I 
want to maintain that skill set, and knowledge for oversight 
and all the things that come after that.
    So, I just observe that our folks are going to do 
everything that is necessary to get this farm bill done, but 
after that, I may have a hard time retaining them when the 
adrenaline of the farm bill process is over.
    Mr. Harper. Just so you know, Mr. Chairman, the staff 
behind you did a good job of holding their applause when you 
said that. So thank you for your time.
    And I yield back.
    The Chairman. We certainly--again, we appreciate both the 
chairman and the ranking member being in attendance today. The 
committee is going to give every serious consideration to your 
budget requests, which are very well thought out, and certainly 
we are very cognizant of the challenges that you face with the 
farm bill, et cetera. And all these vacancies and the budget 
constraints that you have been operating under, we are 
appreciative of that, and we will look at it all. Thank you 
very, very much. We appreciate you both coming. Thank you.
    [Recess.]
    The Chairman. All right. In the interest of time, we will 
take the written testimony from Chairman Ryan, and we would ask 
the ranking member if he has any comment in regard to the 
budget.
    [The statement of Mr. Ryan follows:]
    [GRAPHIC] [TIFF OMITTED] 80286A.021
    
    [GRAPHIC] [TIFF OMITTED] 80286A.022
    
    The Chairman. I will tell you, sir, that the committee has 
received all the documentation that you have submitted. We have 
looked at it. We appreciate it.
    We are especially appreciative of how fiscally conservative 
the Budget Committee has been in regards to you have really 
been walking the walk there, and the committee is well aware of 
that.
    Mr. Van Hollen. Thank you.
    The Chairman. And if you have any comments--

  STATEMENT OF THE HON. CHRIS VAN HOLLEN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Van Hollen. Well, thank you, Madam Chairman, Ranking 
Member Brady, committee members. I appreciate those comments. I 
do have a written statement to submit for the record.
    And I know Mr. Ryan would join me in saying that we have 
had a bipartisan relationship when it comes to dealing with our 
committee budget issues as they affect the committee, and we 
have been trying to do a lot more with a lot less. So I thank 
the members of the committee and hope everyone can get home 
before the airports close.
    [The statement of Mr. Van Hollen follows:]
    [GRAPHIC] [TIFF OMITTED] 80286A.023
    
    The Chairman. Very good. Thank you so much.
    We appreciate your attendance.
    Any comment from the ranking member?
    Mr. Harper, any comment?
    Mr. Harper. No.
    The Chairman. All right. Very well. Thank you so much.
    Mr. Van Hollen. Thank you.
    The Chairman. The committee will be in recess.
    [Recess.]
    Mr. Harper [presiding].  We will now reconvene the 
Committee on House Administration to continue the hearing on 
committee funding for the 113th Congress. A quorum is present, 
so we may proceed.
    The committee now welcomes Chairman Hastings and Ranking 
Member Markey of the Committee on Natural Resources.
    Would the official reporter please enter a page break into 
the hearing record to begin a new section?
    Mr. Harper. With a history dating back to the Louisiana 
Purchase, the Committee on Natural Resources has a proud 
history and jurisdiction over our Nation's energy and mineral 
resources, fisheries and wildlife, affairs related to our 
Native American communities, our water and power resources, and 
our public lands and environmental regulations.
    Its priorities in the 113th Congress will be to continue to 
maximize our Nation's great natural assets and lower energy 
costs for millions of Americans while stifling job-killing and 
industry-harming regulations.
    Chairman Hastings and Ranking Member Markey, welcome.
    You will have 5 minutes to testify before the committee.
    I will now recognize the chair.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman, Mr. Ranking Member, 
for the opportunity to discuss the work of the Committee on 
Natural Resources and to present our 2013 budget requests.
    The Natural Resources Committee is a real work horse in the 
House, to a degree that I do not believe is widely obvious to 
all. A quick look at the statistics of the legislative activity 
of the committee in the 112th Congress best demonstrates just 
how heavy a workload the Natural Resources Committee and its 
staff perform for the House.
    Last Congress, the committee ranked fourth in total bills 
referred to it, nearly 700; first in the number of bills 
reported out of committee; first in bill reports filed; first 
in number of bills passed by the House, over 100; fourth in 
bills considered under a rule; third in public laws enacted; 
and fifth in total hearings among the authorizing committee, 
over 200.
    The committee's jurisdiction under House Rule X is deep and 
broad. As you mentioned, Mr. Chairman, we must maintain a 
diverse staff with specialized expertise on diverse matters 
ranging from offshore energy production, to 398 National Park 
units, to National Forests and the ensuing fires, wildfires on 
those forests; to over 560 wildlife refuges; to commercial and 
recreational fisheries; to 566 recognized Indian tribes; to all 
mining and minerals and coal production; to Federal hydropower 
and western irrigation products; to our overseas territory; and 
to ocean and wildlife generally, including the endangered 
species.
    These activities all have tremendous impact on our Nation's 
economy and the Federal budget. There are areas in our Nation 
suffering severe economic hardship and double-digit 
unemployment. Many of these areas have a direct connection to 
our Federal lands, Federal policies and Federal laws, and many 
of these areas are subject to laws subject to reauthorization 
under our committee's jurisdiction.
    Many do not realize the committee is responsible for one of 
the largest sources of nontax revenue in the Federal Government 
in the form of oil and natural gas leasing and production. 
Between 2008 and 2012, approximately $1 billion to $2 billion 
every month was collected by the Interior Department from this 
development.
    The committee's ability to uphold this workload and fulfill 
our duties to the House is directly reliant on the committee 
staff. It is for these reasons we have acted aggressively over 
the past 2 years to reduce our nonstaff salary budget. In 
total, the committee has reduced its nonstaff salary budget by 
over 50 percent from the amount spent in 2010 to the amount 
proposed in 2013. These costs now represent just 6 percent of 
our total budget, and our staff salary represents 94 percent of 
the budget.
    Even with making these deep cuts to form a lean, efficient 
operating budget, the reductions to the personnel budget have 
already affected the ability of both the majority and the 
minority to hire and retain staff. Further reductions would 
directly impact our existing staff.
    And it is for these reasons that I am requesting a budget 
for 2013 that reflects a freeze from what we had in 2012. 
However, should the sequester be maintained government-wide for 
all of the fiscal year 2013, I want to assure you that the 
committee will certainly fulfill its duty to execute the 
choices that we would have been required to do, but to be 
clear, a full-year sequester equaling 11 percent reduction 
would require impactful adjustments to the existing staff of 
the committee. It would reduce the committee's budget by over 
$800,000.
    For the majority, positions identified as core capabilities 
just last year would now go unfilled and positions occupied at 
the beginning of the year would need to be vacant by the end of 
the year. The majority already has three staff spots 
permanently unfilled under the sequester, and it would grow to 
at least six, meaning that one in 70 majority staff positions 
would be unfilled.
    The House as an institution asks and receives a great deal 
from our committee. We very capably perform both legislatively 
and reducing our budget to a core operating level, so we ask 
you for your consideration for all of this hard work as you 
review and determine our budget for 2013.
    Thank you again for the opportunity to testify, and I look 
forward to any questions that you may have.
    [The statement of Mr. Hastings follows:]
    [GRAPHIC] [TIFF OMITTED] 80286A.024
    
    [GRAPHIC] [TIFF OMITTED] 80286A.025
    
    [GRAPHIC] [TIFF OMITTED] 80286A.026
    
    [GRAPHIC] [TIFF OMITTED] 80286A.027
    
    [GRAPHIC] [TIFF OMITTED] 80286A.028
    
    Mr. Harper. Now the chair recognizes Ranking Member Markey.

   STATEMENT OF THE HON. EDWARD MARKEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, Ranking Member Brady, 
thank you for having us here. I am here to ask for support for 
the Natural Resources Committee's budget request for the 113th 
Congress.
    Doc Hastings and I, we have our vigorous disagreements and 
debates in the Natural Resources Committee, but I 
wholeheartedly support his presentation of the budget facts as 
they relate to the impact of the cuts that our committee has 
experienced over the last 2 years on our ability to carry out 
the work entrusted to us by the House of Representatives.
    In order to be able to carry out the duties entrusted to it 
by the House over all of these diverse and complex matters, the 
committee needs a budget that will enable us to do our job. As 
Chairman Hastings has noted, our committee was already forced 
to absorb a 6.8 percent cut in funding in 2011 and faced a 
further reduction of 6.4 percent last year. These reductions 
mean that the committee is now operating with a budget that is 
12.7 percent less than what it received in 2010, a reduction of 
more than $1 million in funding.
    The committee and its staff have worked long and hard to 
prevent these prior cuts from harming our productivity. Our 
committee has been one of the most active in the House in terms 
of bills referred to us, hearings we have held, actions we have 
taken on these bills. Sustaining this level of effort requires 
a dedicated professional staff.
    As Chairman Hastings has noted, under the request he is 
submitting for 2013, personnel and salary costs will comprise 
94.3 percent of the committee's budget. The budget that 
Chairman Hastings has submitted provides for a freeze at 2013 
allocation. In my view, even this request is barely sufficient 
to enable the committee to do its work. I would therefore 
strongly urge that the committee approve a budget that would 
allow for a 5 percent increase in funding. This would help 
bring the committee's funding level back to a more sustainable 
level.
    What the committee should not do, in my view, is to allow 
sequestration to further slash the committee's funding. I voted 
against the sequestration when it came up before the House 
because I opposed that type of across-the-board cuts that it 
would require. I understand that the committee is in a 
difficult position now that no action has been taken by the 
Congress to eliminate sequestration and replace it with a 
balanced package of spending reductions and tax reforms.
    If the committee approves a committee funding resolution 
with an 11 percent sequestration reduction, it will adversely 
affect the ability of both the majority and minority to retain 
and recruit talented and experienced professional staff. The 
committee would not be able to maintain the pace of legislative 
activity to which the chairman and I are committed and which 
the demands from our colleagues require.
    I would note that the chairman has, consistent with the 
proper practices of our committee, allocated one-third of the 
personnel and salary budget to the minority. We have also 
agreed to continue the practice of the committee to employ the 
nonpartisan shared staff responsible for certain shared 
financial management, administrative, and support functions out 
of the two-thirds share of the majority. We think this 
arrangement has been fair to both the majority and the 
minority. With respect to staffing, the majority has also 
agreed to a two-thirds/one-third split for the committee staff, 
which results in a proper allocation for the minority.
    So I would conclude by reiterating my strong preference 
that the committee's budget be increased by 5 percent. If that 
is not possible, I would argue that, at a minimum, the budget 
should be maintained at the current level in light of the 
substantial challenges before our committee this Congress. What 
we cannot and should not do is to allow sequestration to harm 
the ability of Congress to do the oversight and to pass the 
legislation that the American people expect us to be working 
on.
    I thank you, Mr. Chairman.
    I thank you, Mr. Ranking Member.
    [The statement of Mr. Markey follows:]
    [GRAPHIC] [TIFF OMITTED] 80286A.029
    
    [GRAPHIC] [TIFF OMITTED] 80286A.030
    
    Mr. Harper. Thank you, Mr. Markey.
    And I thank each of you for being here. And now I will ask 
a few questions and tell you first of all how much I appreciate 
the work that you do on the committee. You do have a great 
staff on both sides. And we certainly want to enable you to 
continue doing the great job that took place in the 112th.
    Are there any special circumstances, Mr. Chairman, or you, 
Mr. Markey, any special circumstances that we need to be aware 
of when we are establishing these figures?
    Mr. Hastings. Well, I would just respond by saying, and I 
pointed that out in my remarks, 94 percent of our budget is 
salary. That is pretty hard to effect. But there are some 
issues, you know, supplies that necessarily go with all 
committees, for that matter. I think that is something that 
your committee really ought to look at, to see if there can be 
some--perhaps some consolidation, whether you are talking about 
subscriptions, whether you are talking about phones, or 
anything like that. I mean we found, for example, going through 
our budget, which this is a good exercise, that maybe the cost 
of phones is extraordinarily high. Now that needs to be looked 
at. We are certainly going to look at that. But with 94 percent 
of our budget being salary, it is pretty hard to look at other 
areas. You get it on the margin at that point.
    Mr. Harper. So you are continuing to look anywhere you can 
to effect that savings.
    Mr. Hastings. Yeah. I mean, just to give you an example, I 
mentioned the 94 percent is salary right now. Just two 
Congresses ago, the ratio was 90-10. There was 10 percent for 
travel and everything else. And one of the areas that is 
affected, we have jurisdiction over all public Federal land. A 
lot of that is not on the East Coast. I mean, there is some on 
the East Coast and the West Coast, and we think it is important 
to have hearings when we can. But we have obviously had to cut 
our travel budget because that is part of the nonsalary part. 
But, you know, those are decisions that need to be made. But I 
think it is advantageous for the American people if we can have 
hearings in other areas.
    Mr. Harper. Mr. Markey, anything you would care to add to 
the comments of the chairman?
    Mr. Markey. My father always said when two people agree 
upon absolutely everything, you don't need one of those people.
    So Doc spoke for me.
    Mr. Harper. Thank you, Mr. Markey, and Mr. Chairman.
    And now recognize the ranking member, Mr. Brady, for any 
questions he may have.
    Mr. Brady. Thank you, Mr. Chairman.
    Just thank you for testifying in front of us. And as I said 
to every committee here, it is my main concern that it is hard 
to find qualified people to come in to work for us here at the 
salary that we pay them when they can make two and three times 
in the private sector. And then when we do find them at a lower 
salary, we wind up cutting them. And I know they have 
dedication, but I think that sometimes school bills and rent 
and mortgage and little stuff like that matters a little bit. 
So have you had problems with people that--to attract better 
people and the people that you have, to be able to keep them?
    Mr. Hastings. Thank you for the question.
    I think one of the challenges we face, and Mr. Harper 
mentioned this when he was introducing the committee, is the 
diversity we have as far as our jurisdiction. And I talked 
about that also. It is sometimes very hard to find a staff that 
say is expert in--has a lot of knowledge in ocean policy to try 
to figure out what is going on in National Park policy, or 
western irrigation, or western power. So sometimes it is 
difficult to find people that overlap, and you have to find 
people that have expertise in those areas.
    But, you know, we do it the best, but because our portfolio 
is so difficult, I am not sure we have any more problem than 
other committees. But we do have a wide portfolio, as I 
mentioned, and that is difficult in itself.
    Mr. Brady. Thank you, Mr. Chairman. I have no further 
questions.
    Mr. Harper. We thank each of you for being here.
    Thank you.
    The committee now welcomes Chairman Graves and Ranking 
Member Velazquez of the Committee on Small Business. Would the 
official reporter please enter a page break into the hearing 
record to begin a new section.
    Mr. Harper. Established to protect and assist small 
businesses, the committee has jurisdiction over matters related 
to small business financial aid, regulatory flexibility, and 
paperwork reduction. It also has legislative and oversight 
responsibilities related to the Small Business Administration 
and its programs.
    During the 113th Congress, its priorities are to continue 
to strive to alleviate the crushing burdens on our Nation's 
small businesses from excessive health care-related regulations 
and mandates and to ensure that the Small Business 
Administration is operating efficiently and effectively in 
prudently expanding capital and opportunities to our job-
creating small businesses.
    Chairman Graves and Ranking Member Velazquez, welcome to 
each of you. And we will recognize each of you now for 5 
minutes of testimony.

STATEMENT OF THE HON. SAM GRAVES, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Graves. Thank you, Mr. Chairman, and Ranking Member 
Brady, for the opportunity to discuss the 2013 budget request 
of the Small Business Committee.
    I am proud of the Small Business Committee's 
accomplishments in the last Congress. The committee held 80 
hearings, 9 field hearings. We engaged in aggressive oversight 
of the administrations' 20 agencies, and enacted Federal 
contracting reforms. We reauthorized important research grant 
programs, passed regulatory reform legislation, and developed 
some unique communication tools to reach out to small 
businesses all over America.
    We have also been very pleased to serve as a resource to 
all Members of the House who call on us for assistance with 
their small business constituents' needs, and we look forward 
to building on that success.
    The committee has done all of this work on a very tight 
budget, and we should. We understand that Federal spending has 
to be curtailed, and we have been willing to prioritize and 
save. In fact, last year the committee was one of only three 
committees that were asked for an additional 1 percent above 
the across-the-board cuts for all the other committees.
    The committee provides one-third of its resources to the 
minority, over which they have full control. And I appreciate 
the sacrifices and very tough decisions that the ranking member 
has made to ensure that the committee lives within its means, 
while meeting its responsibilities.
    Today we are talking about the additional cuts in 2013 and 
how various budget scenarios might affect the committee's 
operations. And like most committees, the vast majority of our 
funding is devoted to personnel. Currently, we have 28 staff 
doing the work to keep the committee running and meeting our 
oversight and legislative responsibilities. And frankly, we 
could use more staff. But knowing that more budget cuts are 
likely, the majority made decisions not to hire and to combine 
some staff duties so that our payroll would be sustainable in 
2013. We hope that will be the case.
    But honestly, an 11 percent cut would require us to make 
some very difficult personnel decisions. The committee does not 
have a significant amount of non-salary spending to look to for 
savings. And these expenditures give us the tools to do our 
work like communications, reference materials, supplies, 
equipment. And there really is not a whole lot of fat to cut if 
we want to do effective oversight and run an efficient 
organization.
    If the committee's budget level is funded or set at 105 
percent of what was actually spent in 2012, the outlook 
improves. And we still may not be able to hire the additional 
staff that we need, but we would be able to maintain the status 
quo. The budgets that the committee has submitted under these 
scenarios reflect this reality. And our budget submissions show 
relatively flat or slightly reduced spending in non-personnel 
budget categories. The personnel budget is adjusted for 
whichever scenario is going to occur.
    And I appreciate that the House Administration Committee 
has a tough job to do in administering yet another round of 
budget cuts to the committees. We will do our best to work with 
whatever resources are provided. And we hope that the members 
will consider that our committee is already doing more with 
less, and it has an important role to fulfill as it advocates 
for the Nation's best job creators.
    Thank you for the committee's time.
    [The statement of Mr. Graves follows:]
    [GRAPHIC] [TIFF OMITTED] 80286A.031
    
    [GRAPHIC] [TIFF OMITTED] 80286A.032
    
    Mr. Harper. Thank you, Mr. Chairman.
    I now recognize Ranking Member Velazquez.

  STATEMENT OF THE HON. NYDIA VELAZQUEZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Velazquez. Thank you, Chairman Harper, Ranking Member 
Brady. I appreciate the opportunity to discuss the budget 
submission for the Small Business Committee in the 113th 
Congress.
    I think it goes without saying the key role small 
businesses play in our economy. During tough times, small firms 
are often looked upon to help lift us back toward prosperity. 
Our job on the committee is not solely to investigate and 
examine any matter affecting small businesses but also serve as 
the voice of small firms and entrepreneurs in Congress.
    The Committee on Small Business covers a number of issues: 
Health care, taxes, energy, capital access, contracting, 
technology, agriculture, trade, not to mention jurisdiction 
over the Small Business Administration. Such an extensive 
portfolio requires staff with expertise in the various issue 
areas. As many committees have indicated, it is difficult to 
retain highly skilled staff with a budget that continues to 
dwindle. We have made adjustments along the way, but deeper and 
deeper cuts will undoubtedly take a toll.
    While the funds are reduced, the workload only continues to 
increase. The reality is that the minority was able to manage 
with last year's budget strictly due to the fact that we were 
understaffed. Although our operational expenses are kept to a 
strict minimum, our funding does not allow us to fill all 
vacant slots. For example, we actually need a regulations 
counsel as well as an economist. We have not yet filled those 
positions.
    Now with sequestration in effect, any and all future 
planning as far as staffing are concerned have been put on hold 
until we know what the outcome will be. Chairman Graves and I, 
along with all our committee members, continue to work in a 
bipartisan manner to fulfill our jurisdiction of 
responsibilities. We understand these spending cuts are 
inevitable, but we ask that you are gentle when reviewing our 
numbers. The better staffed and equipped our committee is, the 
better prepared we are to fulfill our jurisdictional 
responsibility. Thank you, and I appreciate your time, and will 
be happy to answer any questions you may have.
    Mr. Harper. Thank you very much.
    And we know this is a difficult time. We have already been 
through a round of reductions in the 112th. And so I would ask 
each of you, do you have any unique challenges to your workload 
that you will have in this Congress versus the 112th?
    Mr. Graves. Well, the biggest thing is obviously going to 
be, you know, trying to continue those resources, provide those 
resources to committee members that obviously they need when 
they are doing, you know, serving their constituencies, whether 
it is, you know, through doing a small business symposium or a 
contracting event where, you know, they are trying to show 
small businesses the opportunities within the Federal 
Government on contracting. You know, that gets tougher when the 
budget is cut. And then also just trying to do more with less. 
And again, that is where we are. I think we are authorized up 
to 47 employees, but we have 28.
    Mr. Harper. Well, I want to say thanks for the effort you 
are making.
    And this is obviously difficult for everyone to try to do.
    But I am going to now recognize Ranking Member Brady to see 
if he has any questions.
    Mr. Brady. Again, my comment is whether or not you can 
attract the quality people to do your job, or whether you can 
keep them ones you have with the institutional knowledge. They 
may not want to stay. They are getting paid less probably than 
the private sector. Now you are asking them to take another 
cut. And I wonder how that may affect the ability for you to 
perform in your committee.
    Ms. Velazquez. It is very difficult to be able to hire 
experts, qualified, talented, committed staff. And not only 
that, but just for these staff to feel that they will be 
remunerated and that they will stay on board. It is very easy 
to train staff that will be willing to leave and go into the 
private sector. I am pleased, don't forget, this is the 
smallest budget of any committee. And given the state of the 
economy and how fragile the economy still is, we get so many 
calls from Members, individual Members, not only that serve on 
the committee but across the board, asking us to help them 
navigate some of the obstacles that small businesses are facing 
when they are trying to access capital through traditional 
lenders or to help put together workshops in their districts.
    Mr. Brady. Thank you. And thank you for appearing for all 
of us.
    And that is all the questions I have, Mr. Chairman.
    Mr. Harper. Thank you very much for taking the time to come 
and see us. Thank you.
    The committee now welcomes Chairman Conaway and Ranking 
Member Sanchez of the Committee on Ethics. Would the official 
reporter please enter a page break into the hearing record to 
begin a new section?
    Mr. Harper. We welcome both of you here. In the interest of 
time, I had some information here to read about what your 
committee does and the importance of it, but I have firsthand 
knowledge of how important the committee is. And we welcome 
both of you here today. And we are going to attempt to get 
through before they call for votes here.
    And we appreciate very much you being here, Chairman 
Conaway, Ranking Member Sanchez. And you each have 5 minutes to 
testify before the committee.
    And I now recognize Chairman Conaway.

    STATEMENT OF THE HON. MIKE CONAWAY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Conaway. Thank you, Mr. Harper.
    Let the record reflect that your exposure to the Ethics 
Committee is as a member of the Ethics Committee.
    Mr. Harper. Yeah, let's clear that up, please.
    Mr. Conaway. In the interest of time, I am going to 
dispense with reading my testimony to you, if I could get 
unanimous consent to enter it in the record.
    Mr. Harper. Without objection.
    Mr. Conaway. When I started as chair this time, the team 
mission is to get our work done as quickly and expeditiously as 
possible. That requires some resources to make that happen. One 
of the complaints about the House Ethics Committee is that our 
investigations and our processes take too long and drag out. 
And some of that is built into the system, but the idea is to 
move things along quickly. Members are far better off with an 
answer than with the unknown. So both on the customer service 
side of our shop, advice and education side, getting those 
answers out quickly as well, but on the adjudicatory phases, 
making that happen quickly is high on our list as well.
    We are currently at 24 employees. We are rated up to 29. We 
don't have the resources to go to 29 at this point. We are in 
an unusual circumstance, as you are well aware, coming off of a 
particular case the last 2 years that provided additional 
resources to the committee. And we would argue to keep some of 
those, given the increase in workload that the STOCK Act is in 
the process of having, as well as continuing to do the job in 
as expeditious a manner as we can because of the impact that 
our work has on Members' reputations as well as their ability 
to do their job as well.
    So, with those brief statements, Mr. Chairman, I will yield 
to the ranking member and be ready for your questions.
    [The statement of Mr. Conaway follows:]
    [GRAPHIC] [TIFF OMITTED] 80286A.033
    
    [GRAPHIC] [TIFF OMITTED] 80286A.034
    
    [GRAPHIC] [TIFF OMITTED] 80286A.035
    
    Mr. Harper. Thank you, Mr. Chairman.
    And Ranking Member Sanchez, you are now recognized.

  STATEMENT OF THE HON. LINDA T. SANCHEZ, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Sanchez. Thank you so much. And in the interests of 
time, I would also ask unanimous consent to just have my formal 
statement included in the record.
    Mr. Harper. Without objection.
    Ms. Sanchez. Great. In the interest of time, I just want to 
touch on three very important things that impact the work of 
the Ethics Committee. We are a unique committee in that we have 
a nonpartisan professional staff, and they have a tremendous 
workload to do the work that we require of them and that gives 
confidence to the public in the work that we do up here on the 
Hill.
    In 2007, private travel was mandated to be reviewed by the 
Ethics Committee. And that has increased the workload of the 
committee tremendously. We are coming up almost on the 10,000th 
request for private travel. And that is an involved process of 
getting information from the trip sponsors. It requires a lot 
of time. And that has increased the staff hours required in 
order to review each of those requests for private travel.
    In 2008, the Office of Congressional Ethics, the OCE, was 
created. They are able to refer matters to the Ethics 
Committee. And that has also increased the workload of the 
staff themselves. While the majority of work that the committee 
staff does is still self-initiated by the committee, those OCE 
referrals do add to their casework. And staffing authority was 
increased in accordance with the creation of the OCE, but we 
have never been fully staffed up since then. Although we 
operate with a highly trained staff, we are not at our maximum 
capacity in terms of the staff that we could hire. The one 
thing that is keeping us from doing that, of course, is the 
budget.
    And then lastly, with the passage of the STOCK Act, we now 
are requiring periodic transaction reports of transactions of 
stock or assets. And that occurs several times throughout the 
year. Each one of those transactions has to be reviewed and 
certified by committee staff. So that will also significantly 
increase the caseload.
    So we are basically here--and I am in agreement with 
everything the chairman said--we are basically here to say that 
given the challenges that face the Ethics Committee, further 
reductions in our budget would mean longer wait times for 
Members and others to get the answers that they need and 
deserve.
    So I will leave that to your consideration. I know you have 
a tough job to do. But we also are seeking to do the work the 
Ethics Committee needs to do under very challenging 
circumstances.
    And with that, I will yield back the balance of my time.
    [The statement of Ms. Sanchez follows:]
    [GRAPHIC] [TIFF OMITTED] 80286A.036
    
    [GRAPHIC] [TIFF OMITTED] 80286A.037
    
    [GRAPHIC] [TIFF OMITTED] 80286A.038
    
    Mr. Harper. Thank you so much.
    And we do appreciate what the Ethics Committee does. And 
while we may not be fully staffed, you have an excellent staff 
that is very dedicated and hardworking, and much appreciated 
for a lot of the work that the average Member may never pay any 
attention to or look at what has to be done in such great 
detail and to make sure that every ``i'' is dotted and every 
``t'' is crossed, and sometimes in triplicate to make sure that 
that gets done.
    So we are in a difficult budget era, and we understand 
that, but I would ask each of you, do you have any unique 
challenges--and I know you are not at liberty to discuss 
details--but do you have any unique challenges that you see 
facing you in the 113th Congress that did not exist in the 
112th Congress that we need to be aware of just in 
generalities?
    Mr. Conaway. Yeah, as the ranking member mentioned, we have 
got these periodic transaction reports. Those are coming in, 
they are required within 30 days of when the filer becomes 
aware of a transaction but no later than 45 days after a 
transaction of notice. We will have those throughout the year. 
Then the annual financial statements themselves will include 
very similar information and there will be numerous inquiries, 
I suspect, from the press and others as to why there may be 
differences, clerical and others. So we anticipate that that 
will only grow.
    We are also challenged with working with some Members as to 
how they actually deal with the STOCK Act. And that is 
requiring additional resources.
    I want to echo your comments earlier about our team. We 
have a terrific staff. And one of the reasons why we have been 
able to do the work that has been done so far, and I think, 
quite frankly, improve over what previous years have done, is 
because of the hard work and dedication of the team that is in 
place. They are terrific. But the STOCK Act will have 
additional ramifications that we really can't tell. Electronic 
filing of that implementation of that, the education piece of 
it that will have to go with the electronic filing piece for 
these PDRs, as well as for financial disclosures will increase 
our workload as well. And because it is a complaint-driven 
system, you never know when a spat of complaints will come in. 
We don't anticipate those right now, but we are subject to 
Members running afoul of the rules.
    Mr. Harper. Thank you, Mr. Chairman.
    Anything you would like to add to that?
    Ms. Sanchez. No. I think the chairman summed it up quite 
adequately. The STOCK Act will create a deluge of additional 
work. And that is something that we will try to keep pace with 
as best we can. But it will be very challenging if we don't 
have additional staff to help that.
    Mr. Harper. I will now recognize Ranking Member Brady for 
any questions he may have.
    Mr. Brady. Thank you for your testimony and appearing 
today. I dare not ask this committee any questions.
    Mr. Harper. Thank you for your time.
    Mr. Conaway. Let me make one off. I have written a report 
to you, we talked about areas of potential savings. We use 
Westlaw and LexisNexis on our committee. There may be other 
committees who have subscriptions to that one as well. And an 
institution-wide subscription might be cheaper rather than each 
individual committee doing it. That way we keep the resources 
that we need to have it, but the House would spend less money 
doing it.
    Mr. Harper. Certainly Judiciary comes to mind and other 
committees.
    Mr. Conaway. Judiciary. I suspect that many of the lawyers 
on all of the committees somehow have access to it. And if 
there is a way we can squeeze a little out of those guys, those 
guys being Nexis and Westlaw, then it might help the overall 
efforts.
    Mr. Harper. Thank you, Mr. Chairman.
    Thank you both for being here.
    The committee now welcomes Chairman McKeon and Ranking 
Member Smith of the Committee on Armed Services. Would the 
official reporter please enter a page break into the hearing 
record to begin a new section?
    Mr. Harper. In the interest of time, and knowing that votes 
could be coming shortly, rather than read the entire script 
that I have here, I want to say we commend you on the great 
work that the committee does. We have some difficult time that 
we have upon us because of budget restraints.
    But at this time, I will now recognize Chairman McKeon for 
5 minutes for any remarks he would care to make.

      STATEMENT OF THE HON. HOWARD P. ``BUCK'' McKEON, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McKeon. Thank you, Chairman Harper, Ranking Member 
Brady, distinguished members of the committee.
    Mr. Brady. You are looking at them.
    Mr. McKeon. Thank you for the opportunity once again to 
testify on the resource requirements of the Armed Services 
Committee and the work that drives those requirements. There 
was a thing here that told me what to do, and I covered it up.
    I am grateful to be joined here today by my partner, 
Ranking Member Adam Smith. Adam's presence here today is more 
than symbolic. I am proud to say that the Armed Services 
Committee is truly a bipartisan committee. For more than a half 
century, our committee has fulfilled the House constitutional 
responsibility to provide for the common defense. We do that 
each year by pulling our parties together to craft an annual 
defense authorization bill (NDAA). Each year, Adam and I have 
worked to stop politics at the water's edge and build a sound 
military and national security policy based on bipartisan 
consensus, sending a message to every man and woman in uniform 
that their country is behind them.
    This week, we started the first series of hearings in 
preparation for the 52nd annual NDAA. We will do it in the 
toughest partisan environment either of us has ever known. 
Every year, the naysayers ask if this is the cycle when we 
won't get a bill done, and every year, we beat the odds. Last 
year, we passed our bill with only hours to spare.
    The partisan environment does not give me pause. The 
enhanced oversight burden that we face does not deter me. If 
there is one thing that I worry will stop us from getting our 
work done or cause us to produce a substandard product, it is a 
resource deficit that we face in our committee.
    The Armed Services Committee (HASC) is the largest 
committee in the House, overseeing the largest Federal 
department. Yet we are also a no-frills, bang-for-your-buck 
organization. The committee ranks 10th on overall committee 
funding. We have the lowest staff-to-Member ratio of any 
committee, at 1 to 1.15.
    Traditionally, we return less than 1 percent of our 
allocated funds, which I will elaborate on later on in my 
testimony. I appreciate that last year the HASC resources were 
not cut as deeply as they might have been. However, that cut 
did have an impact. Though we are authorized 71 staff slots, we 
could only sustain 67 personnel on staff in the 112th Congress. 
In order to sustain this reduced staff, we were forced to 
cancel important resources like subscriptions--by the way, that 
sounds kind of, you know, a subscription? But we have to be 
able to respond immediately when they testify on the Senate 
side, and then come over to our side. This gives us the ability 
to get these things online and have our questions ready the 
next day. Deferred maintenance, replacement of equipment we 
have had to defer.
    Ninety-six percent the of the committee's budget is spent 
on staff salaries. That is the case in large part because we 
rely on highly specialized staff to carry out our mission. 
Employees must be able to hold top level security clearances as 
a condition of employment. They must also be not just 
proficient but experts in a variety of national security 
policies, weapons platforms, and strategically vital regions. 
Most importantly, Adam and I have been able to rely on them to 
do the Herculean behind-the-scenes work that it takes to get a 
bill like the NDAA passed.
    Like many Americans, HASC staff has gone without cost-of-
living adjustments for 2 years. At the proposed 11 percent cut, 
the committee will only be able to support 61 staff, and even 
then, we may need to implement a furlough system. We will limp 
by on old equipment and rely on detailees from other agencies 
to carry out vital oversight work. We will not be able to fill 
critical vacancies in our Tactical Air and Land Forces 
Subcommittee or the Subcommittee on Military Personnel.
    I am concerned that a deep cut to the committee's budget 
would be pennywise but pound foolish. Given the size and scope 
of the Department of Defense (DOD) budget and the opportunities 
that we have to find other savings, it would behoove us to be 
able to have a more complete staff that could help us delve 
into these things. Proposed cuts would cripple committee 
functions at an important time.
    The defense bill we have already begun work on for fiscal 
year 2014 will be one of the most important our committee has 
ever passed. This is a pivotal time for the Department of 
Defense. Their resources are on the decline, while threats 
around the world are on the rise. As I said, we have already 
started the hearing process. We have already heard from several 
of our combatant commanders, and things are getting worse, not 
better.
    The committee will have a decisive role to play in a number 
of key areas. We will help determine how our forces withdraw 
from Afghanistan without giving up the gains we have made over 
the course of a decade. We will help chart the military's 
course in dealing with the emerging cyber threat. We will 
ensure that missions against the emerging al Qaeda threat in 
North Africa are properly resourced. Most importantly, we will 
embark on a substantial reform project.
    Adam and I often disagree on the appropriate amount to 
spend on the military, but we do agree on this: As it stands 
today, our military strategy, the defense budget, the DOD 
policy, and the threats around the world are mismatched. If we 
do not reform the Pentagon, we will find ourselves in a 
readiness crisis with a hollow force.
    In the absence of a fiscal year 2014 defense authorization 
bill, the Pentagon and the White House will begin making a 
series of irreversible and shortsighted decisions. They will be 
forced to. These decisions are aimed at resolving short-term 
budget problems at the expense of long-term strategic 
challenges.
    Many of us have already experienced the first taste of 
those choices when the Air Guard attempted to divest itself of 
critical equipment last year. It was the House Armed Services 
Committee that uncovered the flaws in the Air Force's logic, 
and it was the HASC, through the NDAA, that protected those 
assets with a better solution.
    Thank you for listening to me.
    [The statement of Mr. McKeon follows:]
    [GRAPHIC] [TIFF OMITTED] 80286A.039
    
    [GRAPHIC] [TIFF OMITTED] 80286A.040
    
    [GRAPHIC] [TIFF OMITTED] 80286A.041
    
    Mr. Harper. Thank you, Mr. Chairman.
    I now recognize Ranking Member Smith.

STATEMENT OF THE HON. ADAM SMITH, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Smith of Washington. Thank you Mr. Chairman, Ranking 
Member Brady.
    I appreciate the opportunity to be here.
    I concur with everything that Buck said. I have a statement 
for the record, which I will submit. We do work in a very 
bipartisan way to produce a product. I always like to say, we 
are one of the most bipartisan committees in Congress. And I 
think our National Defense Authorizing Act proves that. We come 
together every year to pass a substantial piece of legislation.
    I only want to highlight a couple of budget facts about our 
committee. First of all, we have the lowest ratio--I may get 
this mixed up--we have the fewest staff per Members of any 
committee in Congress, the largest committee in terms of the 
number of Members. And also our budget, and one of the key 
decisions you are going to have to make as you make these cuts, 
is whether or not you cut the amount of the overall budget or 
the amount that the committees actually spend. I understand 
that there are many committees that have budgets that exceed 
what they spend on a year in and year out basis. So if you do 
an across-the-board cut, they will have plenty of room to work. 
We don't have that room because we spend right up to our 
budget. Because of the size of the committee, because of the 
limited number of staff--I am not seeing the percentage here--
but I think it is somewhere over 90 percent of our budget is 
staff, are the people who actually write our bill every year. 
If we face an 11 percent cut, it will make it very difficult 
for us to produce the same quality product that we used to 
because it will cut the people who are responsible for 
producing that product. We don't have wiggle room on technology 
or stationery or travel. We just don't have much budget. It is 
staff dependent. And if you take this 11 percent across-the-
board approach, I think that would be very, very unfair. We are 
hoping to get, you know, a smaller number, reflective on what 
is actually spent so we can maintain the staff necessary to do 
our job, frankly.
    And as Mr. McKeon indicated, you know, 51 straight years, 
we have passed a bill. Last year, you could make an argument 
that the defense authorizing committees were the only 
committees that passed substantive legislation, given that the 
Appropriations Committee didn't even get there. So it is 
important work, and we need staff to do it.
    We don't have much wiggle room budgetwise. I hope you will 
take that into account when you go to make these numbers work. 
I understand you have a very difficult job. I yield back.
    [The statement of Mr. Smith of Washington follows:]
    [GRAPHIC] [TIFF OMITTED] 80286A.042
    
    [GRAPHIC] [TIFF OMITTED] 80286A.043
    
    [GRAPHIC] [TIFF OMITTED] 80286A.044
    
    Mr. Harper. Thank you so much. I appreciate each of you 
giving us some insight into the difficulties that you face.
    And what I would ask is, as we are looking at the 113th 
Congress, are there any unique challenges that you see you face 
as a committee that you didn't face in the 112th that we need 
to be aware of?
    Mr. McKeon. Sequestration, yes. That has been a huge cut to 
the Defense Department. And I alluded to that in my statement. 
The fact that they are having to make decisions--now, if we 
pass that Continuing Resolution (CR) today and the defense 
appropriations bill, that will help get through this year. But 
we have already started our budget process for this next year. 
And I guarantee you the Chiefs are going to need guidance from 
us and from our committee and from the Members of Congress in 
final decisions that they make.
    And as I also pointed out, we need very top quality staff. 
Most of our staff could make more if they left our committee 
and went somewhere else. Because of the training, most of them 
have served in the military and retired at high ranks. But that 
is required for the job they have to do. We have former pilots 
that oversee the planes and the services and the pilots that 
fly them. So I think this year, going from the defense budgets 
that we have had for the last 10 years to what we will be 
dealing with going forward, it is crucial that we not be under-
resourced at this time.
    Mr. Harper. And Ranking Member Smith, do you see any unique 
challenges that you see as far as your workload is concerned 
for the 113th Congress?
    Mr. Smith of Washington. I would just clarify the chairman 
said sequestration. He doesn't mean the sequestration that we 
are dealing with here; he means the sequestration that is so 
going to disproportionately hit the Department of Defense as 
they have to scramble to figure out what to do under that and 
the legislative authority that we are going to need to help 
them.
    Another responsibility of our committee is to examine 
reprogramming requests that come from the Department of 
Defense. There are going to be a lot of reprogramming requests 
that are going to be very, very important. And I think that 
would enhance the workload significantly.
    Mr. Harper. I will now recognize Ranking Member Brady for 
any questions he may have.
    Mr. Brady. Thank you, Mr. Chairman.
    Mr. Chairman, I am one of the most fortunate people in this 
Congress to be able to serve on two committees, this committee, 
which is totally nonpartisan, and Armed Services Committee, 
which I am proud to serve on for the last 14 years, again shows 
its bipartisanship. I am lucky to say I have two chairmen. They 
don't look at each other as ranking or chairman; they look at 
each other as equals, and they conduct themselves as such in 
the committee, and which we do appreciate it, because I think 
they both realize that we are also helping out our men and 
women that are in harm's way and were in harm's way, and they 
keep their eye on the ball.
    The only I guess comment or question I would have is 
knowing that you can't hire more people--it is tough to do 
that--it is also tough to hire people with the quality and the 
skill set and the institutional knowledge that they would need 
to be able to perform on Armed Services Committee. That is one 
thing. But the other thing I am really concerned about is 
keeping the people that we have. We have an excellent staff. I 
work with them all day long all the time we are there, and they 
do a great job. And it is hard to have them continue what they 
are doing when they get hired at a low rate, and because of 
their dedication, as the chairman stated, and then we have to 
cut them down. And hopefully, we can keep them with the 
institutional knowledge and the skill sets that they have. Now 
we are going to ask them to take a pay cut. So I am trying to 
do my best, and I know this committee will try to do their best 
not to make that happen, put the men and women that are out 
there in harm's way and were in harm's way that are protecting 
our country, it would be a disservice to them.
    So I thank you for testifying in front of us, and would ask 
again, I am sure you run into the problem of keeping good 
people there and do not want to have the decision of telling 
them that the good people you have got now have to take a pay 
cut.
    Mr. Smith of Washington. Just reiterating the challenge of 
keeping people in such a highly skilled position as 
professional staff member on Armed Services in light of pay 
cuts and downsizing and the difficulty of that. And that is our 
greatest challenge. As we had mentioned, our staff, you know, 
drives the show. They write the bill. They do the work. They 
keep us informed. And, you know, even at their current level, 
they work significant hours to get this product done. The cuts 
that are talked about here would be devastating to our ability 
to continue to produce the product we want to produce.
    Mr. McKeon. We just lost, an example, we lost a staff 
member who retired after 23 years. He was a retired colonel, 
and then he came to work for us 23 years. The knowledge that he 
had for personnel was--it will be very, very difficult to 
replace. We are not able to at this time to do that. And then 
we lost another staffer that had been with us for 20 years, a 
distinguished pilot. In fact, I learned after his death that he 
flew, as far as we have been able to verify, more combat 
missions over Vietnam than any other pilot, over 500 and was a 
great member of our committee. When somebody in the military or 
somebody, you know, at the Pentagon would try to snow him on 
something, it was very difficult to do. But again, these people 
are hard to find and hard to replace when we lose them, hard to 
keep them--I shouldn't say hard to keep them. They stay because 
they are very dedicated. But it is hard to get them, have the 
adequate time to, even though they are highly qualified, to get 
up to speed with how the committee works and those kind of 
things. It takes some time to break people in, and the way the 
budget works, it is very difficult to do that.
    Mr. Brady. Thank you, Mr. Chairman.
    And thank you, ranking member.
    I am proud of both of you, you do an excellent job, and 
proud to be on that committee.
    And I have no further questions, Mr. Chairman.
    Mr. Harper. I now recognize Mr. Nugent for any questions 
that he may have.
    Mr. Nugent. Thank you, Mr. Chairman.
    As the newest member to HASC, it truly is an eye-opening 
experience. We take our national defense, I think a lot do, 
just take it for granted that we will always have the best 
military, one that can protect us against all threats. In my 
short time sitting on HASC, I see the multiple challenges that 
we face. We face obviously the sequester and also the 
continuing resolution. Butthe threats that we face outside 
that, that staff that I have dealt with in this short period of time, 
in the briefings I receive, both classified and unclassified, it really 
opens your eyes, I believe, to the threats that we are facing. And so I 
worry about, as we move forward, if we start cutting the budget of 
Armed Services that has to oversee the great men and women that serve 
this country, we have the oversight capacity to do that, but it's also 
important to make sure they have the resources available to them for 
our sons and daughters that go out to fight, that they have the 
resources. So the question I think is redundant possibly, but one that 
is worth asking again. If we were to take the recommendation of this 
budget cut actually versus what you are requesting, how does that 
affect us in Armed Services?
    Mr. Smith of Washington. Well, first of all, I didn't have 
the exact number earlier, 96 percent of our staff budget goes 
to salaries. So it goes to the staff. So there is just no room 
to find savings anywhere else. We will have to cut staff. And 
you know, as a new member of the committee, you can appreciate 
the fact that you are going to play a critical role, as 
everybody on that committee does, in putting together the final 
product. And there is a steep learning curve in understanding 
that the staff is there to help us to figure out how to, you 
know, accomplish our priorities. If they are not there, it 
reduces our effectiveness as members of the committee and 
reduces the effectiveness of the ultimate bill. It really, 
again, comes down to staff.
    And, you know, as I mentioned earlier, you know, because we 
are so staff dependent, we spend the entire budget that we get. 
And so an across-the-board budget cut would be really 
devastating to our ability to perform those tasks.
    Mr. Nugent. Mr. Chairman.
    Mr. McKeon. We have 71 authorized slots now on our 
committee, but we are only filling 67. We would have to go down 
to 61 is our estimate right now.
    You know, I am a little unique in the fact that I have 
chaired two committees now in this Congress. And I see that 
there is difference between committees. Most of our leadership 
people that go into leadership don't become chairmen. The 
Speaker is an anomaly. He was chairman of the Education 
Committee. But it was just one committee. I have told him a few 
things about how committees function differently and kind of 
surprised him.
    The other day we were talking, and I said, we hold a 
hearing almost every day, full committee. And then 
subcommittees on top of each other. And he said, ``Really?'' I 
said, ``Yeah.'' So I appreciate that you give us the 
opportunity to come in and explain.
    Fortunately, a couple of you are on the committee and see 
this. But most people in the Congress don't really know. They 
know what their committee does, the committees they serve on, 
but they don't get the breadth of the whole Congress, and they 
don't see the difference in the committees. If you look at how 
much our committee is budgeted, how many staff we have, and 
then look at all of the committees across the gamut and see how 
many of them get legislation that actually is signed into law 
during the year, I think that that is a result of key excellent 
staff that we have and the ability to work together. As I left 
our committee today, we were listening to three of our 
combatant commanders, to go down and vote in my other 
committee. I got there, and the minority had walked out of the 
committee. I mean, that would never--we wouldn't even think of 
that in our committee. And it is not the way to get things 
done. But I would just say that, as you go through your 
deliberations, please look at the results at the end of the day 
of what the committees produce, and why we do that, and how we 
are able to do that, and fund us accordingly, because our work 
is in the Constitution directed, and we have to carry out that 
responsibility. And I don't think anybody in the Congress wants 
us to do less than our best.
    Mr. Nugent. Well, I am glad you pointed out the fact that 
it is in the Constitution in regards to national defense. And 
that has to be one of our core priorities. Because without it, 
nothing else matters at this point, because we won't be able do 
those things that are important to us, other things that we 
need to do to serve this country. So I want to, once again, 
thank you both for your leadership. And it is an honor to serve 
with both of you. Thank you.
    Mr. Harper. Thank you, Mr. Nugent.
    And I thank the witnesses for being here and sharing your 
insight into what is a difficult time for us all. And I also 
thank our committee members who participated in these hearings 
for yesterday and today. And the hearing is adjourned.
    [Whereupon, at 1:24 p.m., the committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 80286A.045
    
    [GRAPHIC] [TIFF OMITTED] 80286A.046
    
    [GRAPHIC] [TIFF OMITTED] 80286A.047
    
    [GRAPHIC] [TIFF OMITTED] 80286A.048
    
    [GRAPHIC] [TIFF OMITTED] 80286A.049
    
    [GRAPHIC] [TIFF OMITTED] 80286A.050
    
    [GRAPHIC] [TIFF OMITTED] 80286A.051
    
    [GRAPHIC] [TIFF OMITTED] 80286A.052
    

</pre></body></html>
